No. 20-________
TAMATRICE WILLIAMS,
Petitioner,
v.
CITY OF SHERWOOD, ARKANSAS,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 3390 words, excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 17, 2020.
/s/ Joshua A. House
Joshua A. House

